CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
Petitioners in 20-544, Alaska Native Village
Corporation Association, Inc., et al.; Janet L. Yellen, in
her official capacity as Secretary of the Treasury v.
Con/ederated Tribes of the Chehalis Reservation, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, and via Next Day Service and e-mail service to
the following parties listed below, this 22nd day of
February, 2021:
Riyaz A. Kanji
Kanji & Katzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com

Counsel for Respondents Confederated Tribes of the
Chehalis Reservation, et al.
Nicole E. Ducheneaux
Big Fire Law & Policy Group, LLP
1404 Fort Crook Road South
Bellevue, NE 68005
(406) 493-4693
nd uchenea ux@bigfi.re law .com

Counsel for Respondent
Cheyenne River Sioux Tribe

Jeffrey Rasmussen
Patterson Earnhart Real Bird & Wilson LLP
357 S. McCaslin Boulevard
Suite 200
Louisville, CO 80027
(303) 926-5292
jrasmussen@nativelawgroup.com
Counsel for Respondent
Ute Indian Tribe of the Uintah and
Ouray Reservation
Elizabeth B. Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States
Paul D. Clement
Counsel of Record
Erin E. Murphy
Ragan N are sh
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

"--J

JOHN D. GALL.~SHER
Notary Public, State of Ohio
My Commission Ex~,;r?s
:,:,bru;-iry 14, ?023

